Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




   STATE CHILDREN’S HEALTH
     INSURANCE PROGRAM

Ensuring Medicaid Eligibles are not Enrolled in
                  SCHIP




                          FEBRUARY 2001
                          OEI-05-00-00241
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended by Public Law 100-504, is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches to
correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Chicago regional office prepared this report under the direction of William Moran, Regional
Inspector General and Natalie Coen, Deputy Regional Inspector General. Principal OEI staff
included:

REGION                                                  HEADQUARTERS

Deborah Walden, Team Leader                             Joan Richardson, Program Specialist

Nora Leibowitz, Project Leader

Michael Craig, Program Analyst





       To obtain copies of this report, please call the Chicago Regional Office at (312) 353-9867.
          Reports are also available on the World Wide Web at our home page address:

                                    http://www.hhs.gov/oig/oei/
                     EXECUTIVE                         SUMMARY

PURPOSE

         To evaluate whether States are enrolling Medicaid eligible children in the State Children’s
         Health Insurance Program.

BACKGROUND

         Many low-income children receive health care coverage through Medicaid and the State
         Children’s Health Insurance Program (SCHIP). The SCHIP is designed to reduce the
         number of uninsured children by offering health care coverage to previously uninsured
         children. The program targets children with family income too high for Medicaid and too
         low to afford private insurance.

         The Balanced Budget Refinement Act of 1999 required that the Office of Inspector
         General (OIG) sample States in order to: (1) evaluate whether States are correctly
         enrolling children in SCHIP or Medicaid; and (2) assess States’ progress in reducing the
         number of uninsured low-income children. According to the Act, the OIG was to evaluate
         the States’ progress on performance goals. Sampled States were to be selected only from
         States not using SCHIP funds to expand Medicaid.

         This is one of two reports focusing on five of the 15 States administering separate child
         health programs as of October 1, 2000. Those States are North Carolina, Oregon,
         Pennsylvania, Utah and Vermont. This report focuses on State efforts to ensure that
         Medicaid eligibles are not enrolled in SCHIP. In a companion report, we assess States’
         efforts to evaluate their SCHIP performance goals.


FINDINGS

SCHIP eligible children are enrolled in the proper program

         We found few Medicaid eligible children enrolled in SCHIP in the 100 cases we reviewed

         in each of the 5 sample States. One State had a single case in which a Medicaid eligible

         child was enrolled in SCHIP, while two other States had three and five cases, respectively. 

         Two States had no Medicaid eligible children enrolled in SCHIP. Three States had no

         over-income children in SCHIP. We found only one over-income case in one of the States

         and three such cases in the other. Based on our 2-stage stratified-cluster sample, we

         estimate that at the 90 percent confidence level, between 97.6 percent and 

         99.6 percent of SCHIP enrollees were correctly enrolled in the 13 States administering

         separate child health programs in fiscal year 1999. States attribute correct enrollments to


SCHIP - Enrollment                                 i                                OEI-05-00-00241
         review of income information and staff training. All five States require proof of income to
         determine eligibility for some applicants.

         Four sample States manually determine SCHIP eligibility, while the fifth utilizes an
         electronic eligibility system. One State is currently developing an electronic eligibility
         system. Others are interested in such systems but have no plans to implement them.

States provide a smooth transition between SCHIP and Medicaid

         States have worked to streamline the process of transferring children from one program to
         another. Four of the 5 States permit 6 to 12 months of continuous eligibility for SCHIP.
         This reduces the burden of frequent income verification for States and relieves families of
         the need to provide frequent income updates to the State.

         In an effort to encourage and simplify SCHIP re-enrollment, States have sent out
         re-enrollment reminder letters to families and allowed applicants to submit shorter re-
         application forms. Medicaid staff often determine both SCHIP and Medicaid eligibility,
         which increases program coordination and staff knowledge about eligibility rules.

Conclusion

         We believe that Medicaid eligible children are not being enrolled in SCHIP by States who
         administer separate child health programs.

AGENCY COMMENTS

         The Health Care Financing Administration (HCFA) and the Health Resources and

         Services Administration (HRSA) provided formal comments to the draft report. 

         Both concur with the findings. The full text of their comments are included as Appendices

         A and B.





SCHIP - Enrollment                                  ii                                OEI-05-00-00241
                          TABLE                     OF            CONTENTS

                                                                                                                        PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


                     SCHIP eligible children are enrolled in the proper program . . . . . . . . . . . . . . . . 5


                     States provide a smooth transition between State CHIP and Medicaid . . . . . . . . 7


APPENDICES

                     A: HCFA Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


                     B: HRSA Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12





SCHIP - Enrollment                                                                                         OEI-05-00-00241
                                   INTRODUCTION


PURPOSE

         To evaluate whether States are enrolling Medicaid eligible children in the State Children’s
         Health Insurance Program.

BACKGROUND

         Many low-income children receive health care coverage through Medicaid and the State
         Children’s Health Insurance Program (SCHIP).1 Both Medicaid and SCHIP are joint
         State-Federal programs that allow States administrative discretion within guidelines
         established by statute and the U.S. Department of Health and Human Services.

         Medicaid, which was established in 1965, is the largest program providing health care
         services to America's poorest people. Within broad national guidelines set by the Federal
         Government, each State administers its own program, sets its own eligibility standards,
         determines the type, amount, duration and scope of services, and sets payment rates.

         Total non-administrative expenditures for the Medicaid program were $180.9 billion in
         1999 ($102.5 billion in Federal and $78.4 billion in State funds). The Health Care
         Financing Administration (HCFA) reports that in 1998, 51 percent of all Medicaid
         recipients were children. In 1998, Medicaid paid an average of $1,150 per child for the
         20.6 million children who received services through the program.

The State Children’s Health Insurance Program and uninsured children

         Over 10 million children in the United States are uninsured. SCHIP is designed to help
         reduce the number of uninsured low-income children by providing them with health care
         coverage. Title XXI of the Social Security Act (SCHIP’s enabling legislation) was
         created by the Balanced Budget Act of 1997 (P.L. 105-33). The law appropriated nearly
         $40 billion over 10 years to help States expand health insurance to children whose families
         earn too much to qualify for Medicaid, yet not enough to afford private insurance.

         Like Medicaid, SCHIP is a State and Federal partnership, but the Federal match for
         SCHIP expenses is greater than the match for Medicaid. States have three options for
         covering uninsured children under Title XXI: design a separate children’s health insurance
         program, expand Medicaid eligibility, or a combination of the two strategies. As of
         October 1, 2000, 15 States administer separate child health programs, 23 run

         1
          The Health Care Financing Administration refers to Title XXI-funded programs as State CHIP or SCHIP.



SCHIP - Enrollment                                         1                                        OEI-05-00-00241
         expanded Medicaid, and 18 have combination programs.2 This report focuses on the
         15 States operating separate programs. These States are Arizona, Colorado, Delaware,
         Georgia, Kansas, Montana, Nevada, North Carolina, Oregon, Pennsylvania, Utah,
         Vermont, Virginia, Washington, and Wyoming.

         Under Title XXI, a State must have an approved State plan for a fiscal year in order to
         receive an allotment that year. Each State submitted a SCHIP plan to HCFA, outlining
         program structures, use of funds, benefits, strategic objectives, and performance goals.

         Close to 2 million children who would otherwise be without health insurance coverage
         were enrolled in SCHIP in fiscal year 1999. This is double the number reported enrolled
         in 1998, the first full year of the program. Of the 56 State and territorial children's health
         insurance programs to date, 53 were operational during fiscal year 1999. Of the nearly
         2 million children covered as of September 30, 1999, over 1.2 million were enrolled in
         separate children's health insurance programs and almost 700,000 were enrolled in
         Medicaid expansion plans.

Ensuring correct enrollment in State CHIP and Medicaid

         To encourage States to expand child health insurance eligibility, the Federal match for
         States’ Title XXI expenditures is greater than the match for Medicaid. The average
         Federal match for Title XXI is 71 percent, while the average Federal match for Medicaid
         is 57 percent. Medicaid is an entitlement program and States are required to enroll all
         eligible children. SCHIP is not an entitlement program and States have the discretion to
         cap enrollment for SCHIP eligibles or create waiting lists. So that States do not try to
         maximize SCHIP reimbursements by enrolling Medicaid eligibles in SCHIP, Title XXI
         requires States to screen SCHIP applicants for Medicaid eligibility. Therefore it is
         essential that children found eligible for Medicaid must be enrolled in Medicaid rather than
         in the SCHIP. States receive only the Medicaid-level match for any child enrolled in
         Medicaid based on the eligibility standards that existed before Title XXI was enacted.
         Due to their effort to enroll children in new Title XXI funded programs, some States have
         noticed the so-called “woodwork effect”; by conducting outreach for SCHIP, they
         encourage greater numbers of Medicaid eligibles to apply for health care services as well.

         In their SCHIP State plans, States agreed to assess all SCHIP applicants for Medicaid
         eligibility before checking SCHIP eligibility. Medicaid assessment techniques for some
         States are outlined as follows:

         C	          North Carolina checks the Medicaid information system to see whether the
                     applicant has existing Medicaid coverage. If the child is not currently covered by
                     Medicaid, Medicaid eligibility is assessed before SCHIP eligibility is pursued.




         2
             Currently, 50 States, 5 Territories and the District of Columbia administer Title XXI programs.



SCHIP - Enrollment                                              3                                         OEI-05-00-00241
         C	          Nevada checks Medicaid eligibility for all applicants reporting income up to
                     25 percent above the Medicaid limit before assessing eligibility for SCHIP.

         C           Delaware uses a common computer eligibility system for Medicaid and SCHIP.

Legislative Requirement for OIG Studies

         Section 703 of the Balanced Budget Refinement Act of 1999 required that the Office of
         Inspector General (OIG) sample States in order to: (1) evaluate whether States are
         correctly enrolling children in SCHIP or Medicaid as appropriate; and (2) assess the
         progress made by States to reduce the number of uninsured low-income children. The Act
         further requires that the OIG evaluate the progress sampled States have made to achieve
         their strategic objectives and performance goals. Sampled States were to be selected from
         States not using any SCHIP funds to expand Medicaid.

         This is one of two reports focusing on a sample of five States administering separate
         children’s health programs. This report focuses on State efforts to ensure that Medicaid
         eligibles are not enrolled in SCHIP. In a companion report entitled “State Children’s
         Health Insurance Plan - Assessment of State Evaluation Reports,” OEI-05-00-00240, we
         address States’ evaluations of their performance goals.

METHODOLOGY

         Based on the requirements outlined in the Balanced Budget Refinement Act of 1999, we
         limited our universe to the 15 States utilizing their Title XXI allotments to operate
         separate children’s health programs. Two States, Wyoming and Washington, were
         excluded from the population because they began administering SCHIP in December 1999
         and February 2000, respectively, and thus had no enrollees in fiscal year 1999.

         We used a 2-stage stratified-cluster sampling plan to select 5 States from the 13 remaining
         States. The remaining 13 States were divided among 2 strata. Pennsylvania was a self-
         representing State as illustrated in Strata 1, based on the significantly large number of
         children enrolled in their SCHIP. From the remaining 12 States, we randomly selected 4
         States, North Carolina, Oregon, Utah, and Vermont, for Strata 2. The chart on the
         following page outlines the number of children enrolled in SCHIP in each of the Strata and
         sample States in Fiscal Year 1999.




SCHIP - Enrollment                                    3                                OEI-05-00-00241
                                      Selected Sample States

                                              STRATA 1


                States Selected     Number of Children Enrolled in   Number of Cases Selected For
                                         SCHIP in FY 1999                      Review

                 Pennsylvania                   81,758                           100

                     Totals                     81,758                           100

                                             STRATA 2


                States Selected     Number of Children Enrolled in   Number of Cases Selected For
                                         SCHIP in FY 1999                      Review

                North Carolina                  57,300                           100

                     Oregon                     27,285                           100

                      Utah                      13,040                           100

                     Vermont                    2,055                            100

                     Totals                     99,680                           400


         We reviewed the 5 States’ Title XXI plans and the SCHIP evaluation reports submitted to
         HCFA in March 2000. We conducted on-site visits and met with staff at the agency
         administering SCHIP in each of the five States.

         We conducted case file reviews and discussed enrollment issues and goal attainment with
         State staff. We reviewed 100 randomly selected active SCHIP case files in each State in
         order to evaluate whether ineligible children were enrolled in SCHIP. We provided each
         State with randomly selected case numbers and staff pulled these cases in preparation for
         our visit. The results of our case file review were analyzed using a statistical analysis
         package that takes into account complex sample designs.

         One part of our discussions with SCHIP staff focused on State efforts to appropriately
         enroll children and safeguards used to ensure proper enrollment. We also discussed State
         CHIP evaluations. We collected documentation of State eligibility and enrollment
         practices and of evaluation efforts.

         We conducted our review in accordance with the Quality Standards for Inspections issued
         by the President’s Council on Integrity and Efficiency.




SCHIP - Enrollment                                4                               OEI-05-00-00241
                                      FINDINGS

SCHIP eligible children are enrolled in the proper program

         We found few Medicaid eligible children enrolled in SCHIP in the 100 cases we reviewed
         in each of the 5 sample States. One State had a single case in which a Medicaid eligible
         child was enrolled in SCHIP, while two other States had three and five cases, respectively.
         Two States had no Medicaid eligible children enrolled in SCHIP.

         While the focus of our review was on children who were enrolled in SCHIP despite their
         eligibility for Medicaid, we also found a limited number of cases in which family income
         exceeded established limits for SCHIP eligibility. One State had one such case and
         another had three cases with over-income children. The other three States had no such
         cases.

         All five States reported a belief that they are enrolling children in the appropriate
         programs. When asked, States rated how successful they believed they had been on a
         scale of 1 to 10, with 10 being extremely successful, the average rating was 9. States
         attribute their success to careful analysis of income information and timely training of their
         employees.

         Our case file reviews confirmed the States own assessments. Using the results of our case
         file reviews in the 5 sampled States, we estimate that at the 90 percent confidence level,
         between 97.6 and 99.6 percent of the children were enrolled correctly in SCHIP in the 13
         States that administered separate child health programs in fiscal year 1999.

Eligibility is primarily based on income

         All SCHIP programs must evaluate children’s eligibility based on family income. The five
         States we visited require some proof of income to determine program eligibility for most
         enrollees. Four States require between 1 and 3 months of current payroll information, one
         of which allows families to self-declare income earned through self-employment. The fifth
         sample State allows most families to self-declare their income but asks for proof of
         income, such as a recent W-2 tax form for children in families with self-employment
         income. States also verify some reported family income through checks of computerized
         data bases, such as WageMatch or Social Security Administration files.

         States report they are confident that children are enrolled correctly because they have faith
         in families’ willingness to report income changes. Several States that utilize continuous
         enrollment report that families contact program staff to report income changes when they
         happen, even though this is not required by the program. Because families


SCHIP - Enrollment                                 5                                 OEI-05-00-00241
         volunteer information about income changes, States believe that families are honestly

         reporting income and other information at enrollment.


         Other eligibility factors require children to:


         C           be younger than 19 years old;

         C           not have other current health insurance;

         C           have been without health insurance for a period of time specified by the State

                     (usually 1 to 6 months); and
         C           be U.S. citizens or legal residents.

Training helps ensure proper enrollment

         SCHIP administrators reported they train eligibility staff about program rules and
         enrollment practices. They indicated that training helps ensure enrollment workers
         understand current programs and changes to SCHIP and Medicaid as they occur.
         One State found problems with workers enrolling children with current insurance despite
         SCHIP rules that prohibit this. As a result, the State retrained all enrollment workers to
         ensure that they understood program rules and now reports that incorrect enrollment of
         insured children has been stopped. Several States reported that they conduct periodic
         training for staff to ensure their knowledge of program rules and guidelines and to keep
         them informed of any changes in program operation.

Eligibility mostly determined manually

         Four of the five sample States manually determine SCHIP eligibility. These States rely on
         enrollment workers to collect and review documentation, calculate eligibility, and ensure
         that applicant children are not Medicaid eligible before enrolling them in SCHIP.
         However, these States store this information electronically. The fifth sample State utilizes
         an electronic eligibility system that assesses whether the children are eligible for Medicaid.
         If children are found ineligible for Medicaid, the process is repeated to determine SCHIP
         eligibility.

         One State that currently determines eligibility manually is in the process of developing a
         centralized computer system to electronically verify eligibility. State staff anticipate the
         electronic verification process will enable them to move children between SCHIP and
         Medicaid more easily and will make the transition between programs seamless for the
         recipient. It also will diminish the possibility of improper program placement. The other
         three States we visited would like to develop a system to determine eligibility
         electronically but have no immediate plans to do so.

         None of the sampled States conduct systematic checks of eligibility after a child is
         enrolled in SCHIP. However, several States indicated that they conduct post-enrollment
         checks if they question information a family provides.


SCHIP - Enrollment                                    6                                 OEI-05-00-00241
Public perception of Medicaid may lead to enrollment challenges

         Two States report that families view SCHIP more favorably than Medicaid because people
         associate Medicaid with public assistance. These two States report they suspect some
         Medicaid eligibles are applying for SCHIP, meaning that State workers must pay close
         attention to income information.

         In the three other States, administrators report that families have not expressed a
         preference for SCHIP over Medicaid. Applicants may not be aware of a difference
         between SCHIP and Medicaid in these States, as the two programs are similar in structure
         and benefits. A single agency administers both programs in these States, and the
         distinction between the programs is not publicized.

States provide a smooth transition between State CHIP and Medicaid

         Families eligible for SCHIP and Medicaid often experience changes in income which effect
         program eligibility. Since income fluctuations are common, the five sample States have
         worked to streamline the process of transferring children from one program to the other.

States permit continuous eligibility

         Four of the five sample States allow SCHIP enrollees to remain in the program for a
         specified period even if family income changes enough to warrant transfer to Medicaid or
         out of the program. The “continuous eligibility period” begins when the application has
         been approved and lasts between 6 and 12 months, as determined by the State.
         Continuous eligibility helps reduce the burden on States to repeatedly verify income
         information and relieves families of the need to provide frequent income documentation.
         Although States utilizing continuous eligibility allow children to remain on SCHIP as
         family income changes, there can be exceptions to this rule to ensure proper enrollment.
         For instance, one State automatically transfers SCHIP recipients to Medicaid when their
         families begin receiving Temporary Assistance for Needy Families benefits.

         The only sample State that does not practice continuous eligibility requires SCHIP
         enrollees to notify staff of a change in income within 10 days of any change. After
         notification of a change, enrollees are transferred to the Medicaid program if they meet
         Medicaid eligibility requirements. Transferred individuals are unaware of a change in
         program enrollment because the transfer is done internally and enrollees see no differences
         in program structures or benefits.

States have simplified the re-enrollment process

         In an effort to encourage and simplify SCHIP re-enrollment, sampled States have taken
         steps to ease the process. For example, several States send out reminder letters prior to


SCHIP - Enrollment                                7                                OEI-05-00-00241
         the re-enrollment date, no longer require new applications to be completed at re-
         enrollment, and allow eligibles to re-enroll by mail or phone.

Medicaid staff often determine both SCHIP and Medicaid eligibility

         Four of the five States facilitate the transfer of applicants’ enrollment information
         between Medicaid and SCHIP by having the Medicaid enrollment staff also determine
         SCHIP eligibility. This method of partnering the programs allows the person conducting
         the eligibility determinations to become familiar with both programs and reduces the
         likelihood of incorrect program placement. Four States also automatically refer
         individuals who are not eligible for SCHIP to Medicaid and vice versa. In some States,
         those SCHIP applicants found to be Medicaid eligible only need to fill out an addendum to
         their completed SCHIP applications.

Conclusion

         As required by Section 703 of the Balanced Budget Refinement Act of 1999, we evaluated
         whether States administering separate child health programs are enrolling Medicaid
         eligibles in SCHIP. Based on our random sample, these five States do not appear to be
         doing so.


Agency Comments

         The Health Care Financing Administration and the Health Resources and Services
         Administration provided formal comments to the draft report. They concur with the
         findings. The full text of their comments are included in Appendices A and B.

         The HCFA provided information regarding their continued work with States to ensure
         that effective screening occurs, and acknowledged the importance of State developed
         systems to effectively ensure that children who are screened and found potentially eligible
         for Medicaid are enrolled in Medicaid. The HCFA also notes they have issued guidance to
         States encouraging simplification of the application and enrollment process to promote
         coordination, and are working with States to examine the redetermination process to
         assure that it promotes ongoing coverage of children who become ineligible for one
         program and eligible for the other.

         The HRSA offered technical comments that included stating the specific date for our
         summary of SCHIP plans, and adding language to clarify that the 15 States in our universe
         had “accessed their 1998 SCHIP allotment” rather than utilized “their entire Title XXI
         allotments.”




SCHIP - Enrollment                                8                               OEI-05-00-00241
                         APPENDIX A




SCHIP - Enrollment   9    OEI-05-00-00241
SCHIP - Enrollment   10   OEI-05-00-00241
SCHIP - Enrollment   11   OEI-05-00-00241
.

                          APPENDIX B




SCHIP - Enrollment   12    OEI-05-00-00241
SCHIP - Enrollment   13   OEI-05-00-00241
